<html>
<title> - NOMINATIONS OF RUSSELL T. VOUGHT AND CRAIG E. LEEN</title>
<body><pre>[Senate Hearing 116-474]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-474

                   NOMINATIONS OF HON. RUSSELL T. VOUGHT 
                                AND CRAIG E. LEEN

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

          NOMINATION OF HON. RUSSELL T. VOUGHT TO BE DIRECTOR,
   OFFICE OF MANAGEMENT AND BUDGET AND CRAIG E. LEEN TO BE INSPECTOR 
                GENERAL, OFFICE OF PERSONNEL MANAGEMENT

                               __________

                              JUNE 2, 2020

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-720 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
               Andrew J. Timm, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     3
    Senator Carper...............................................    11
    Senator Hawley...............................................    13
    Senator Scott................................................    16
    Senator Rosen................................................    18
    Senator Hassan...............................................    20
    Senator Portman..............................................    23
    Senator Lankford.............................................    26
    Senator Romney...............................................    28
    Senator Sinema...............................................    30
Prepared statements:
    Senator Johnson..............................................    37
    Senator Peters...............................................    39
    Senator Scott................................................    41

                               WITNESSES
                         Tuesday, June 2, 2020

Hon. Russell T. Vought to be Director, Office of Management and 
  Budget
    Testimony....................................................     4
    Prepared statement...........................................    42
    Biographical and professional information....................    44
    Letter from the Office of Government Ethics..................    67
    Responses to pre-hearing questions...........................    70
    Responses to post-hearing questions..........................   120
    Letter of Support............................................   180
Craig E. Leen to be Inspector General, Office of Personnel 
  Management
    Testimony....................................................     6
    Prepared statement...........................................   182
    Biographical and professional information....................   185
    Letter from the Office of Government Ethics..................   212
    Responses to pre-hearing questions...........................   215
    Responses to post-hearing questions..........................   242

 
           NOMINATIONS OF RUSSELL T. VOUGHT AND CRAIG E. LEEN

                              ----------                              


                         TUESDAY, JUNE 2, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., via 
video conference, Hon. Ron Johnson, Chairman of the Committee, 
presiding.
    Present: Senators Johnson, Portman, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. The hearing will come to order. Today we 
are considering the nomination of Mr. Russell Vought to be the 
Director of Office of Management and Budget (OMB), Mr. Craig 
Leen to be Inspector General (IG) of the Office of Personnel 
Management (OPM).
    I would ask consent that my written statement be entered 
into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I will keep my opening remarks pretty short.
    The Office of Management and Budget has a broad mission to 
assist the President in the development and execution of his or 
her policies and programs. While OMB is perhaps the best known 
for its role in overseeing the coordination, production, and 
administration of the President's annual budget, the Office is 
also responsible for coordinating the President's legislative 
agenda, regulatory and information policy, and management of 
the Executive Branch. The OMB Director is a member of the 
President's Cabinet and oversees a staff of close to 500 
employees.
    We certainly want to welcome Mr. Vought. Thank you for your 
current service and appreciate your willingness to serve in a 
confirm capacity.
    The Office of Inspector General (OIG) of the Office of 
Personnel Management audits and investigates waste, fraud, and 
abuse. OPM issues policy guidance and regulations governing the 
Federal civil workforce and manages the health and retirement 
benefits offered to the millions of current and former 
employees and their families. As it continues to struggle to 
recover from the catastrophic 2015 cybersecurity breach, OPM is 
undergoing a radical reorganization. The National Background 
Investigations Bureau (NBIB), which accounted for over one-
third of OPM's employees, was transferred to the Department of 
Defense (DOD) late last year, and there are serious questions 
about whether OPM is still fit to serve a workforce so 
fundamentally different from when it was established in 1979.
    Those are obviously the job descriptions of positions that 
we are to be talking to nominees about. I want to again thank 
Mr. Leen and thank Mr. Vought for your willingness to serve.
    Before I turn it over to Senator Peters, I do want to just 
comment a little bit in terms of what this Committee has done 
in terms of hearings on coronavirus disease (COVID) as well as 
what we are going to be doing in the future.
    Back on February 12, we held a hearing, ``Are We Prepared? 
Protecting the U.S. from Global Pandemics,'' and we had former 
Centers for Disease Control (CDC) Director Dr. Julie 
Gerberding; former Food and Drug Administration (FDA) 
Commissioner Scott Gottlieb; former Director of Medical and 
Biodefense Preparedness of the National Security Council (NSC), 
Dr. Borio; and others. That, by the way, was the roundtable 
where, certainly, I learned for the first time the 
vulnerability of our supply chain as it relates to 
pharmaceutical drugs. Setting up future hearings, I will talk 
about that a little bit later.
    On March 5, ``The Federal Interagency Response to the 
Coronavirus and Preparing for Future Global Pandemics,'' we had 
the Department of Homeland Security (DHS) Acting Secretary Ken 
Cuccinelli and the Department of Health and Human Service (HHS) 
Assistant Secretary for Preparedness, Dr. Kadlec. I thought 
that was a pretty darn interesting hearing.
    Then on May 6, I think the week we returned, we held our 
first WebEx internet hearing, ``How New Information Should 
Drive Policy.'' We had six, a combination of PhD, medical 
doctors, really kind of laying out some of the considerations 
of the shutdown and how we really ought to be coping with 
COVID.
    Coming up now, June 9, we are going to hold a hearing 
evaluating the Federal Government's procurement and 
distribution strategies in response to the COVID-19 pandemic.
    Again, on June 9, we will have the Federal Emergency 
Management Agency (FEMA) Administrator Peter Gaynor; HHS 
Assistant Secretary for Health Brett Giroir; Joint Chief of 
Staff, Vice Director for Logistics, Admiral John Polowczyk.
    Then on June 16, ``CBP Oversight: Examining the Evolving 
Challenges Facing the Agency.'' We will have Acting 
Commissioner Mark Morgan, and we are in the process of crafting 
two hearings, one on the medical supply chain, including 
pharmaceuticals, and then the strategic national supply chain 
as well.
    Really through the last couple of months while on extended 
recess because of COVID, the staff has been working tirelessly 
developing the foundational base work and baseline information 
we need to hold these oversight hearings on COVID, on the 
medical supply chain, on the financial strategic stockpile, so 
looking forward to those hearings and hope all of our Members 
can be in attendance for those as well.
    With that, I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Chairman Johnson, and thank you 
to all of our nominees for being here today and for your 
willingness to serve.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 39.
---------------------------------------------------------------------------
    Today we are considering the nominees for two very 
different positions, both critical, to ensuring that the 
Federal Government is effectively serving the American people. 
They are both very challenging roles, certainly, under any 
circumstances, but as our country faces an unprecedented public 
health and economic crisis, we need a Federal Government that 
works strategically and effectively. And that puts the American 
people first.
    States, businesses, workers, and families are looking to 
the Federal Government for guidance, resources, and leadership 
as we work toward safely reopening our economy.
    Mr. Vought, you have served as the Acting Director of the 
Office of Management and Budget for the past year and a half, 
and in this role, you have helped shape spending and policy 
decisions governmentwide. You currently play a central role in 
overseeing how agencies across government are implementing the 
$2.2 trillion relief package in the Coronavirus Aid, Relief, 
and Economic Security (CARES) Act.
    That responsibility includes swiftly getting economic 
relief to those most in need while ensuring that taxpayer 
dollars are protected from waste, fraud, and abuse.
    Chairman Johnson and I worked to include bipartisan 
oversight and accountability provisions in that legislation, 
and I am disappointed by the administration's failure to 
cooperate with that oversight.
    Mr. Leen, if confirmed, you will have a key oversight role. 
As the Inspector General for the Office of Personnel 
Management, you will be the agency's independent watchdog, 
charged with rooting out fraud, waste, and abuse.
    To be successful, you must be relentlessly independent. You 
must follow the facts wherever they may lead, and you must not 
allow political pressure to interfere with your work. As you 
know, that is not going to be easy.
    Over the past 2 months, the President has removed two 
Senate-confirmed Inspectors General and replaced a number of 
Acting Inspectors General with political appointees. These 
actions threaten the integrity and independence of oversight 
across the enter Federal Government enterprise.
    I encourage you both to look to Congress and to this 
Committee as a partner. While we may not always agree on 
specific measures or policies, we all want to protect the 
health and safety of the American people, and we all want to 
reopen the economy safely.
    Mr. Vought, I appreciate the commitments you have made to 
work with Congress and cooperate with oversight efforts, and I 
hope that those commitments actually are demonstrated in 
action.
    Mr. Leen, if confirmed, I hope you will also see this 
Committee as a resource, especially if you encounter challenges 
in carrying out your important oversight work.
    Thank you again, both of you, for being here, and thank you 
for testimony.
    Thank you once again, Mr. Chairman, for the hearing today.
    Chairman Johnson. Thanks, Senator Peters.
    It is the tradition of this Committee to swear in 
witnesses. So if you will both raise your right hand and then 
answer one at a time.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Vought.
    Mr. Vought. I do.
    Chairman Johnson. Mr. Leen.
    Mr. Leen. I do.
    Chairman Johnson. Thank you.
    We will start with Mr. Vought. Mr. Russ Vought is the 
Acting Director of the Office of Management and Budget, a 
position he has held since January 2019. In February 2018, Mr. 
Vought was confirmed by the Senate as Deputy Director of OMB. 
Prior to his service at OMB, he worked as a congressional staff 
for several Members of Congress, including Representative Jeb 
Hensarling and Senators Chuck Hagel, Phil Gramm, and Dan Coats, 
and eventually became the Policy Director for the House 
Republican Conference.
    Mr. Vought received his juris doctor from George Washington 
University Law School and his bachelor or arts from Wheaton 
College.
    Mr. Vought.

 TESTIMONY OF THE HONORABLE RUSSELL VOUGHT\1\ TO BE DIRECTOR, 
                OFFICE OF MANAGEMENT AND BUDGET

    Mr. Vought. Thank you, Mr. Chairman, and thank you to the 
Ranking Member and the Members of the Committee for the honor 
of appearing before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Vought appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    I also want to thank my family--my wife, Mary, and my 
daughters, Ella and Porter--for the unconditional support they 
have given me not only through this confirmation process but 
throughout my tenure at OMB.
    I am honored that the President has nominated me to serve 
as Director of OMB following in the footsteps of some very 
distinguished public servants. Working at OMB has long been an 
aspiration. I came to OMB at the very beginning of this 
administration. I have had the privilege of helping to lead 
this agency, first as Deputy Director and for the last year and 
a half as Acting Director. I know the caliber of the men and 
women who work there. I know the importance of their mission. I 
know the awesome responsibility of the work that OMB does.
    My mantra at OMB throughout my years in leadership here has 
been ``One OMB'' in order to create a culture, not of silos, 
but of collaborators so that the best expertise can be heard. I 
have had management positions in my career, but none so equally 
challenging and rewarding as the management of this agency. The 
portfolios of the various components of this agency are so 
diverse, and each one of them have a critical nature 
fundamental to the functions of our government.
    The men and women I work with at OMB thrive on information 
gathering and problem solving. They are innovative and smart 
and, frankly, tenacious. They do their best work when they work 
together, bridging gaps between their management and their 
budget and their regulatory functions to find holistic answers 
to complicated challenges.
    There are roughly 500 full-time employees at this agency, 
but I have seen them do remarkable things. It is a privilege to 
work with them and to lead them for the last 3\1/2\ years.
    I have spent my entire career caring about taxpayers and 
their families. I have fought to save them money and ensure 
that their tax dollars are well spent.
    I come from a blue-collar family, the son of an electrician 
and a public school teacher. I know what they went through to 
balance their budget and save for the future. My parents worked 
long, hard hours to put me through school. They worked long, 
hard hours to pay for the government in their lives. I have 
often wondered what else they would have been free to build and 
give without such a high burden.
    My parents represent the forgotten men and women of this 
country. They always were the yardstick by which I tested 
government spending, and I am grateful to work for an 
administration that has made the eyes and hearts of the 
forgotten man the lens from which we see policy.
    These men and women live and work in every city and every 
town in every State in this great country. I believe in their 
dreams, and I believe that our government ought to let them 
pursue those dreams. The very phrase ``Office of Management and 
Budget'' may not be part of their lexicon, but I know that the 
work of OMB has the ability to impact them in immeasurable 
ways.
    If the Senate confirms me to be the Director, know that I 
will be serving for their betterment.
    Thank you for considering my nomination. I am happy to 
answer your questions.
    Chairman Johnson. Thank you, Mr. Vought.
    The next nominee is Craig Leen. Mr. Leen is the Director of 
Office of Federal Contract Compliance Programs (OFCCP) of the 
Department of Labor (DOL). Prior to Federal Government service, 
Mr. Leen served as the City Attorney for Coral Gables, Florida, 
for 6\1/2\ years. Before that, he was the Assistant County 
Attorney in Miami-Dade County and the Chief of the Federal 
Litigation Section.
    If confirmed, Mr. Leen would be only the second Senate-
confirmed nominee to hold the position of Inspector General of 
the Office of Personnel Management since 1990.
    Mr. Leen received his juris doctor from Columbia University 
and his bachelor of arts from Georgetown University. Mr. Leen.

 TESTIMONY OF CRAIG E. LEEN\1\ TO BE INSPECTOR GENERAL, OFFICE 
                    OF PERSONNEL MANAGEMENT

    Mr. Leen. Chairman Johnson, Ranking Member Peters, members 
of the Committee, it is a true honor to appear before you as 
the nominee for Inspector General of the U.S. Office of 
Personnel Management. I thank the President for nominating me 
and this Committee for considering me. If confirmed, I will 
serve with integrity, independence, and a commitment to 
transparency and truth in government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Leen appears in the Appendix on 
page 182.
---------------------------------------------------------------------------
    I would like to say a few words about myself. I am married 
to my college sweetheart. We live in Georgetown, only a 15-
minute walk from where we first met. My wife, Dr. Ana Maria 
Muniz-Leen, is a double board-certified psychiatrist. She works 
at our alma mater providing psychiatric services to Georgetown 
students.
    We have two children we are very proud of, Alex and Pierce. 
Our daughter Alex is 15 years old. She has profound autism and 
a substantial intellectual disability. She loves the outdoors, 
music, and Disney movies. I have struggled and fought for 
accommodations for her for over a decade. These experiences led 
me to become a strong advocate for individuals with 
disabilities. This has been a significant focus of my public 
work, including at OFCCP, and it would certainly continue if I 
become OPM IG.
    Our son, Pierce, is 9 years old. He is a walking miracle. 
He was not supposed to live past 19 weeks in utero, but through 
an amazing procedure called the ``amniopatch'' and a couple 
remarkable doctors, he is here today. He was diagnosed on the 
autism spectrum when he was almost 2 years old. He benefited 
significantly from early therapies and is now succeeding in a 
typical class in third grade. He intends to be a historian. 
Pierce is Alex's best friend and often her voice.
    I would also like to thank my parents and my siblings, who 
I know are watching as well.
    In my career, I have worked in both the public and private 
sectors. Immediately prior to OFCCP, I served in apolitical, 
nonpartisan roles for 12\1/2\ years, first as a Miami-Dade 
Assistant County Attorney and then as Coral Gables City 
Attorney, as you mentioned, Mr. Chairman.
    As City Attorney, I answered to the City Commission, 
serving as chief legal officer and chief ethics officer, 
including overseeing code enforcement prosecutions and police 
legal and conducting internal reviews and issuing legal 
opinions. I was a leading proponent of transparency and ethics 
in government, and I published over 400 City Attorney opinions 
that you can still read, if you would like, on the city's 
website.
    Both Coral Gables and Miami-Dade County commended me 
through proclamations when I completed my service as City 
Attorney, even declaring Craig E. Leen Days in both the county 
and city, which I have on my wall.
    I came to Washington to make a positive mark on the Federal 
level at OFCCP, one of the primary Civil Rights enforcement 
agencies in the United States. I have given my heart and soul 
to this work. OFCCP had its most successful year in history in 
fiscal year (FY) 2019, with over $40 million in recoveries to 
workers, almost double any other year. The agency had a record 
year for compliance assistance to businesses and initiated a 
major new disability inclusion enforcement initiative.
    OFCCP's bread and butter is neutrally scheduled audits 
along with complaint investigations. We have been enhancing the 
economy and efficiency of this work, and we have had excellent 
results.
    I also issued a major transparency directive at OFCCP. 
Transparency has been a hallmark of my tenure.
    This has been great preparation for being an Inspector 
General. If confirmed, I would focus on the following immediate 
priorities: closing open IG recommendations and establishing a 
public dashboard to track progress; addressing improper 
payments and seeking to eliminate them; evaluating OPM's 
guidance related to the pandemic, learning from what went well 
and what could be improved; increasing the amount of 
evaluations done by the OPM IG's office; and ensuring equal 
employment opportunity for all protected classes, including 
ensuring inclusion and accommodations of individuals with 
disabilities.
    I would like to say more on two of these priorities. The 
OPM Inspector General's office has over 300 open 
recommendations going back many years. This is a common issue 
for IGs. So many open recommendations erodes public trust in 
government. I would make closing them a focus from day one.
    Also, I have been OFCCP Director. I have seen that a number 
of best practices that we ask Federal contractors to follow are 
not followed by the Federal Government. I would address this in 
my oversight role as Inspector General, helping ensure the 
civil service system is based on merit and merit alone. In 
these difficult times and at all times, it is critical that 
Civil Rights and equal employment opportunity be a major focus.
    I have enjoyed meeting many Senators and staff members of 
this Committee through this process. Thank you for considering 
me today.
    Chairman Johnson. Thank you, Mr. Leen. It is inspiring, 
really, to see how you have taken your own personal family 
experience and turn it into public service. We truly appreciate 
that.
    There are three questions the Committee asks of every 
nominee for the record. I will ask for each question that Mr. 
Vought answer first and then Mr. Leen, and then I will reserve 
the balance of my questions for the very end out of respect for 
my colleagues' time.
    So question No. 1, is there anything you are aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Mr. Vought.
    Mr. Vought. No.
    Chairman Johnson. Mr. Leen.
    Mr. Leen. No.
    Chairman Johnson. No. 2, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Vought.
    Mr. Vought. No.
    Chairman Johnson. Mr. Leen.
    Mr. Leen. No.
    Chairman Johnson. And, finally, do you agree without 
reservation to comply with any request or summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Vought.
    Mr. Vought. Yes.
    Chairman Johnson. Mr. Leen.
    Mr. Leen. Yes.
    Chairman Johnson. OK, great.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    My first question is to both Mr. Vought and Mr. Leen. Let 
me start with a question for the two of you. Will you both 
commit to fully and promptly respond to any oversight request 
from this Committee, including from the Ranking Member and 
other minority Members of the Committee?
    Mr. Vought.
    Mr. Vought. Yes. We are going to continue to work with the 
Committee and all the Committee Members to make sure we can be 
as responsive as we possibly can.
    Senator Peters. Thank you.
    Mr. Leen.
    Mr. Leen. Yes, certainly.
    Senator Peters. Mr. Vought, I have been deeply concerned to 
hear that the Government Accountability Office (GAO) has been 
unable to receive the information that they need to do some of 
their critical oversight work on the Federal Government's 
coronavirus response and spending. So I just have a few yes or 
no questions for you. If you want to elaborate, that would fine 
as well, but, Mr. Vought, yes or no, will you make a public 
commitment, and as Acting Director and if confirmed, you will 
fully and promptly cooperate with all GAO requests for meetings 
and information?
    Mr. Vought. I will certainly work with GAO closely. It is 
our practice to do that.
    We have just responded to an information request from GAO, 
and we have a great deal of respect for the work that they do. 
And I will continue to work and try to respond as quickly as we 
possibly can.
    Senator Peters. So, again, yes or no, which would be 
related to what you just said. As Acting Director and if 
confirmed, you will commit to have OMB provide GAO the full and 
complete response to several outstanding information requests? 
There are several. You mentioned one in particular, but the 
several requests that the GAO made to OMB, if you could do that 
within the next few weeks, especially those related to the 
coronavirus response?
    Mr. Vought. I certainly view the last week's response as 
the first of many and will be working to prioritize those and 
get back to GAO. Yes.
    Senator Peters. I requested that the GAO review Small 
Business Administration (SBA's) Paycheck Protection Program 
(PPP), but it is my understanding that the GAO has been unable 
to fully conduct its review because the SBA has refused to 
cooperate. As Acting Director and if confirmed as Director, do 
you commit to ensure that all Federal agencies fully and 
promptly cooperate with GAO requests? Clearly, they cannot do 
their job if agencies are not cooperating.
    Mr. Vought. I will certainly commit to looking into it, 
Senator, inquiring with other agencies on that front, and it is 
our practice from an intergovernmental standpoint that agencies 
respond to be able to ensure that the public has the 
transparency, that this Committee has the transparency to be 
able to do its oversight work.
    Senator Peters. Mr. Vought, since the start of the COVID-19 
outbreak, we have seen a disproportionate impact this virus has 
had on our communities of color across the country, and 
certainly, we have seen it firsthand in my home State of 
Michigan as well.
    I know you are aware of these disparities, and we had an 
opportunity to talk about them on Friday together. I would like 
you to say for the record here, what specific steps have you 
taken as Acting OMB Director to try to address this issue?
    Mr. Vought. Thank you for the question, Senator. It is 
something that the task force has been very aware of as soon as 
we began to see some of the disparities and the impact for 
those individuals, those communities, and as a result, the task 
force made it a priority to be able to speak into that need and 
to be able to provide information where appropriate.
    I think you had asked for some further concreteness, and it 
is a lens that we continue to look for, particularly as we are 
in the process of dispensing these funds and figuring out, 
often filling in the gap where there was a statutory lack of 
how to construct these programs for opportunities. I do not 
have specifics to report on other than this has been a 
priority, and it will continue to be a priority.
    Senator Peters. If it is a priority, why do you not have 
more specifics?
    Mr. Vought. There is a need to both get resources out the 
door as quickly as we possibly can and to construct these 
programs where there is not statutory specification. We are 
going continue to do that, and we will keep the Committee up to 
date with all the information as we go forward.
    Senator Peters. So you will be able to give us more 
specifics? Because you have the commitment to me and to all the 
other Members of the Committee that this is a priority for you, 
and if it is a priority for you, that means you will be able to 
come back to this Committee and give us specific action that 
you were involved in?
    Mr. Vought. Yes, sir. It is a priority of the 
administration and I am happy to report back on the 
administration's policy priorities.
    Senator Peters. Mr. Vought, I have urged the administration 
to reopen the enrollment period for the Affordable Care Act 
(ACA) because so many people are clearly losing their jobs now, 
but they still need access to health care, especially during a 
pandemic. Access to health care is critical, particularly in 
the communities of color that we have just been talking about, 
where underlying health conditions are a major part of why so 
many people are losing their lives when affected by this virus.
    So my question is pretty straightforward. Why is the 
administration restricting access to health care coverage 
during a public health crisis when people need it more than 
ever?
    Mr. Vought. We do not think we are, Senator. In fact, there 
is an open enrollment provision that allows for anyone that has 
lost their job or had a change in life experience to be able to 
access the exchange.
    The President signed into law, legislation that would 
increase the Federal Government's share of the Medicaid program 
by 6 percent, to be able to cover more individuals on Medicaid.
    So, again, this is something that we believe that in the 
various four packages, we have either taken action or we have 
done work administratively specifically on the matter that you 
have raised.
    Senator Peters. Why would you not just open up an 
enrollment for the Affordable Care Act just generally? People 
have applied----
    Mr. Vought. Again, we think it----
    Senator Peters [continuing]. And do not have access to 
insurance. They are thinking, ``I will apply. We are in a 
pandemic. I better make sure my family is protected.'' They 
could do it later in the year, but why not allow that to happen 
right now when they need it?
    Mr. Vought. We want to make sure that we do not have any 
disincentives for employers that might drop coverage and put 
people on the exchange. We want to make sure that it is truly 
there for those who have had a specific change in their job 
experience and their life experience to have that be reserved 
for them.
    Senator Peters. Mr. Vought, in Michigan, polyfluoroalky 
substances (PFAS) contamination continues to be a very serious 
public health concern. We talked about that on our call as 
well, and I fought for provisions requiring the administration 
to stop the use of PFAS in firefighting foams and issue 
drinking water standards that will protect public health. Will 
you commit to strongly supporting efforts to phaseout the 
Department of Defense's use of fluorinated foams?
    Mr. Vought. As you know, Senator--and we talked about it 
last week--the issue of the PFAS has been a priority of this 
administration. It continues to be a priority for many 
agencies, including the Environmental Protection Agency (EPA). 
We will continue at OMB to efficiently get done rules that come 
from agencies and to ensure that we do everything we possibly 
can to protect the communities where PFAS has, unfortunately, 
risen up as an issue.
    Senator Peters. Your commitment to say you will move these 
as expeditiously as possible and as efficiently--maybe you said 
``efficiently'' as possible was the actual word that you used. 
Can I then have your commitment to expedite the review of the 
EPA's drinking water standard for PFAS after it is submitted?
    Mr. Vought. Yes, I cannot make any commitment to how long 
that will take, but it will be a priority. And we will move as 
quickly as we possibly can.
    As you know, we were able to clear a recent PFAS regulatory 
initiative within 8 days because as an administration, we had 
to ensure that the interagency process had resolved all of the 
issues, and we were able to move forward. So I do commit to 
trying as fast as I possibly can to make sure that happens 
expeditiously.
    Senator Peters. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Peters.
    I just want to remind all Members that the little clock is 
in the lower corner of the screen.
    Our next questioner is Senator Carper.
    [Pause.]
    Is Senator Carper there?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Yes, just on my voice.
    Chairman Johnson. OK. There you go.
    Senator Carper. All right. Hello, everybody, and to our 
nominees, welcome, good to see you.
    I may have missed some of the earlier questions from our 
Chair and the Ranking Member. So if I repeat what was asked, I 
ask you just to bear with me and just give the same answer that 
you gave before.
    Mr. Vought, as you know, OMB plays a key management and 
coordination role for Federal agencies to administer programs. 
This administration has largely deferred responsibility of the 
coronavirus responses to the States. OMB's role in critical 
issues related to responses such as procuring needed supplies 
for key industries and ensuring worker safety in and outside of 
government and overseeing agency response is unclear. What role 
has OMB had in assisting and overseeing agencies' abilities to 
procure key supplies such as personal protective equipment 
(PPE)?
    Mr. Vought. Thank you for that question, Senator Carper.
    I have sat on the task force, and so I have been very aware 
of the conversations and where OMB could be useful. Much of the 
work that you have asked regarding has been done at FEMA 
working in conjunction with the frontline agencies like HHS, 
and so the work of the agencies has been primarily the ones 
giving the States the resources that they need. And we have 
also been working with Federal agencies to put out guidance as 
it pertains to the Federal workforce and as well as on the 
regulatory front to work with agencies as they are trying to 
move regulatory initiatives through that would have an impact 
on the response or recovery on the coronavirus effort.
    So all three of the major siloes within OMB have been very 
active, but the primary immediate frontline response for 
coronavirus has been at FEMA, working with the task force at 
large.
    Senator Carper. All right. A follow-up question, what role 
has OMB had with regards to ensuring essential worker safety, 
both inside and outside of government?
    Mr. Vought. We put forward guidance on two fronts, Senator. 
We put out guidance at the beginning of the crisis to be able 
to ensure that agencies were moving to maximum and then to 
mandatory telework.
    Then as we are moving and reopening, we have put forward 
guidance to help give a grid to agency heads, and we really 
believe that agency heads need to have the discretion to be 
able to make many of these decisions because their workforce is 
so diversified. The number of localities that they work in is 
so diversified, but we have tried to make sure that they have a 
grid that follows the phases of the Governors in which their 
offices are located and to ensure that they do not open up if 
they do not have the necessary PPE or other resources to be 
able to keep their workers safe. And we want to make sure that 
they have the flexibility to do that.
    So one of the reasons we have not provided more of a 
directive across Federal Government is because this is a 50-
State issue that needs to be thought through in conjunction 
with the public health officials on the ground.
    Senator Carper. I believe when I joined the hearing, I 
heard Senator Peters asking about responsiveness to the 
questions and information sought.
    Let me just ask this question. You may have been asked this 
before, but I want to ask it again. One of the major jobs that 
we have on this Committee is oversight. Our job of oversight, 
as you know, of our Federal Government, and we take that 
responsibility seriously.
    I never ask questions for information that, frankly, is 
just for fun because I think it is a given that we need the 
information to work it out.
    Let me ask, will you commit to provide material responses 
to what was requested of you in the Committee's prehearing 
questionnaire?
    Mr. Vought. Yes. I do commit to working and doing 
everything I can to be responsive to the Committee.
    There are going to be times when we do not feel like we can 
provide certain information as part of the deliberative 
process, but you have my commitment that I will always try to 
get the Committee what it needs to be able to do its oversight 
and to work in as transparent a fashion as I possibly can.
    Senator Carper. Thank you.
    Normally, I would open with a short statement, but I am 
going to just close with a short statement. My time expired.
    Mr. Chairman, thank you for bringing this together for this 
hearing today.
    As you know, our Nation is facing multiple national 
emergencies, the likes of which we have almost maybe never seen 
in our lifetime, my lifetime, and I have been around for a long 
time. Americans are suffering with the level of intolerance and 
violence. This Committee occupies a unique role as the chief 
oversight committee of the Senate.
    Further, this Committee has come together on previous 
emergencies such as after 9/11, which I witnessed personally, 
to work in a bipartisan way to develop solutions and work to 
address those issues.
    While I am committed to seeing Mr. Vought and Mr. Leen, Mr. 
Leen is here with us today, we have a responsibility as well to 
be responsive to our constituents and we work together to 
develop solutions to the multiple crises I mentioned.
    Let me ask one question, if I can, of Mr. Leen. Mr. Leen, 
if there is just one point you would like to make with those of 
us on this Committee, what thing about your service would you 
like to do as well, what would it be? I like to say the main 
thing, make the main thing, the main thing. What will be the 
main thing for your service, if confirmed?
    Mr. Leen. What would be the main thing for me to focus on 
as IG?
    Senator Carper. Yes. I have a friend who used to say, gave 
me advice when I was elected Governor. He said, ``Just remember 
this, Governor. Keep the main thing, the main thing,'' and that 
is the focus of what is most important, pretty well the most 
important.
    Mr. Leen. The main thing to me is fulfilling the public 
trust that is given to me and doing that to the full extent I 
can. So when you ask would I be responsive to Congress, I would 
be, and my job is to be transparent and to point out 
recommendations and to see those recommendations are done.
    Senator Carper. Last, if you are confirmed, how do you plan 
to maintain the independence and objectivity of the Office of 
Personnel Management as Inspector General?
    Mr. Leen. From day one, the moment I get there, I will talk 
to my staff at the Inspector General's office and let them know 
that we are obviously independent. I will send a message to all 
of OPM, letting them know I am independent and that I have an 
open-door policy. And I would ask the OPM Director or Acting 
Director to send a message to all staff at OPM indicating my 
independence and that they should provide me access to all 
information.
    Senator Carper. And beyond that?
    Mr. Leen. I think that to me is an excellent start, and 
every day I will have to show that I can do that. But I can. I 
have done that in my career. I did that at Coral Gables. I have 
done that at OFCCP even in a political post. I have always been 
an honest broker and given my honest opinion.
    Senator Carper. Keep it up. Thanks so much.
    Chairman Johnson. Thanks, Senator Carper.
    Again, I will remind everybody you have that clock in that 
lower corner of your screen there.
    I saw Senator Scott on briefly, but I do not see him now. 
So unless I hear from him like quick, we will go to Senator 
Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman.
    Mr. Vought, let me start by asking you about the 
administration's deregulatory agenda, if I could. I know this 
has been a major focus for the President, and I know that there 
have been additional deregulatory members taken as part of the 
coronavirus pandemic response. So let me just ask you maybe to 
start with that. Tell us about what steps in response to the 
current health crisis have been taken on the regulatory front, 
and then I am going to ask you about what of those you see 
being made permanent to the overall State of the deregulatory 
effort.
    Mr. Vought. Sure. Thank you, Senator.
    I think this administration has had an outpouring of 
creativity as it pertains to trying to deregulate and use 
enforcement discretion. There has been 600 different actions 
that this administration has done to respond to the coronavirus 
shock that we have seen, everything from ensuring that if the 
manufacturer wants to be able to produce a similarly made 
ventilator or to be able to allow distillers to create hand 
sanitizer or ensuring that a restaurant that has a takeout 
delivery system does not have quite the same nutrition labels. 
These are all things that we have been able to either 
temporarily waive or to be able to use the enforcement 
discretion on.
    The President signed an Executive Order that I am sure you 
have seen that would ask all agency heads to look through those 
lists and identify what they can turn into permanent regulatory 
activity. He was very clear when he signed that and when he was 
talking about it at the Cabinet meeting to ensure that he did 
not have anything specific in mind, and he was not saying that 
agencies do not need to make sure that they continue to abide 
by the statutes and take care of things like public safety and 
all of the things that they are required to do by enforcing 
their laws.
    So I do not want to get ahead of that reporting function, 
but we do look forward to what the agencies bring back to us.
    In terms of the overall deregulatory efforts, it is going 
very well. We have had about seven and a half of deregulatory 
rules for every one. The President committed to the American 
people to do two for one. So we continue to move forward in 
that area, and I think this has been an opportunity to find 
things that we might not have seen before as potential areas of 
deregulatory initiatives had we not gone through this 
unfortunate crisis.
    Senator Hawley. Thank you for that.
    What is the timeline, just by the way, on the Executive 
Order (EO), the report back that the President has asked for? 
When are you expecting those recommendations, those reports to 
come back?
    Mr. Vought. I am expecting them soon. I can get back to you 
with a specific deadline, but I know from talking to my 
colleagues, they are working on this very quickly. Many of them 
were excited to have that direction from the President, and 
they will be coming. I do not expect them to wait on a deadline 
to be able to get back to us.
    Senator Hawley. Very good. I look forward to following up 
with you about that.
    Speaking of Executive Orders, the President last October 
issued two significant orders reforming the treatment of agency 
guidance. I wonder if you could explain a little bit about why 
these Executive Orders were necessary and what reforms they 
instituted when it comes to the guidance question.
    Mr. Vought. Sure. And, honestly, a lot of the idea and 
thinking behind those important EOs came from some of the 
legislative work that started at this Committee.
    But we put forward two Executive Orders. One was designed 
to get guidance out of the dark, to require them to be--for 
agencies to put on a public searchable website, any of the 
guidance that they are going to continue to rely on. And the 
point of that is to make sure that people have certitude and 
certainty with regard to the guidance that agencies are relying 
on.
    Guidance often does not go through the normal process. We 
have asserted that it should have, but often there is a culture 
that would require it not to go through notice and comment and 
the cost-benefit analysis process. So we very much want to make 
sure that when agencies are using guidance as a reason to 
regulate, that that goes through the same procedures as a 
normal rulemaking would.
    With regard to enforcement, again, we want to make sure we 
are getting our arms wrapped around the administrative state. 
We do not ever want to hear about examples in the future of 
someone building four ponds on their property in an attempt to 
fight a future wildfire and find out that they were at cross-
waves with the EPA and then spend years of their last few years 
of life--and I am thinking of Joe Robertson, the Navy veteran, 
who spent a year and a half of his last 3 years in a prison 
because he built those four ponds. We want to ensure that 
people have information and they know what agencies are relying 
on and that they have an ability to challenge these decisions 
and to be treated with respect from that standpoint. That is 
what the enforcement EO is all about.
    Senator Hawley. It has been about 6 months since those two 
were signed. Do you have any indication--the orders, that is. 
Do you have any indication yet about how effective or not they 
have been?
    Mr. Vought. We think we are on the road to ingraining that 
culture in with the agencies. The first deadline was for the 
websites to be up, and the vast majority of agencies have 
complied.
    The EO allowed us also to extend the deadlines where we 
felt it was necessary, and there has been a couple of 
instances, namely the Department of HHS, where the sheer number 
of mix of agencies and guidance that they need to continue to 
work through gets reflected on the website, but everyone is 
moving full bore ahead.
    Senator Hawley. Very good. Thank you, Mr. Vought. Thank you 
for your testimony today. I look forward to supporting your 
nomination.
    Mr. Leen, just a very few seconds that I have remaining 
there as I glance at the clock, let me just ask you. In your 
written testimony, you noted that over 300 open OIG 
recommendations would be the primary focus for your work as IG.
    I want to talk about the incident in 2015 when OPM was the 
target of what has been described by Federal officials as maybe 
the largest breach of government data in United States history 
at the hands of Chinese hackers who compromised--I think it was 
21.5 million records.
    My understanding is OPM still has several open OIG 
recommendations regarding data protection and privacy that have 
not been implemented. So can you tell me, if you are confirmed, 
will the protection of Americans' personal data rank at the top 
of your list in terms of prioritizing open OIG recommendations?
    Mr. Leen. Definitely. The data breach was a catastrophe, 
and it is something that cannot happen again.
    Many of the open recommendations go to information 
technology (IT) issues and security issues. They will be a top 
priority for me.
    Senator Hawley. Very good. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thanks, Senator Hawley.
    It will next be Senator Scott and then Senator Rosen. 
Senator Scott.

             OPENING STATEMENT OF SENATOR SCOTT\1\

    Senator Scott. OK. Thank you, Chairman, for having this 
Committee hearing today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Scott appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    Mr. Vought, thank you very much. I have enjoyed working 
with you since I have been up here, and I know you are very 
focused on how do we watch taxpayer dollars. Thank you for 
focusing on how you are going to work with Inspector Generals 
to make sure our dollars are spent well.
    So now our Federal debt is going to be, what, $25, $26 
trillion by the end of the year? I think for the first time, it 
is going to be more than 100 percent of our gross domestic 
product (GDP), I think, since, what, World War II? So I 
personally believe this is dangerous and unsustainable.
    What steps do you think you can take or we should be doing 
that is going to help address this?
    Mr. Vought. I appreciate the question, Senator. It is a 
passion of mine, and I do share your concern about where we 
are.
    I do not think anyone would argue that this has not been a 
once-in-a-generation shock to the economy from a public health 
standpoint and the economy, and this administration is proud of 
the efforts that we have done to respond. And we will continue 
to do that, if necessary.
    But that should not keep us as a country from coming 
together and being able to pursue reforms where we can agree. 
This administration has put forward more spending reforms than 
any President in history, and we have not had congressional 
support yet. And we hope that will come at some point.
    We have put forward a budget resolution that contains many 
of those reforms, and we will continue to be working with 
Congress to see those turn into law in the future.
    Then we want to make sure we implement the law as best we 
possibly can to make sure that anything that taxpayers have 
been able to provide to meet the crisis where it is, is done in 
as a fiscally responsible manner as possible. There is always 
conversations to start and policy processes to continue as we 
try to reach alignment with Congress, and I am happy to work 
with you in the future as we have since I have been the Acting 
Director.
    Senator Scott. Yes. Well, again, thank you for what you 
have been doing.
    In fiscal year 2018, the GAO's governmentwide estimate of 
improper payments was $152 billion, and then in fiscal 2019, it 
rose to $175 billion in improper payments. So, if confirmed, 
what are you going to do to try to figure out how to get that 
down? It would be nice if it was zero, of course, but what 
would you do to reduce that?
    Mr. Vought. It would, and I think the fact that it has gone 
up is a reflection that spending has gone up.
    But Congress has given us some recent tools with the 
Payment Integrity Improvement Act. So we are hard at work to be 
able to implement that law and some of the new tools allowing 
States to use the Do Not Pay Center at Treasury. We continue to 
look for other reforms that give us more of a statutory 
authority to use the Social Security death file to be able to 
track that with other databases.
    We are trying to change the culture in many agencies, that 
instead of giving them more paperwork to fill out, it gives 
them more of an encouragement to find out what is the root 
cause of where some of these improper payments are coming from.
    So it is certainly something that I will commit to, to be a 
priority, because it has been in all of the budgets that we 
have proposed, but we want to be able to have a declining rate 
in the years ahead.
    Senator Scott. Thank you.
    I recently introduced the Agency Accountability Act, which 
creates a commission to regularly review Federal agencies for 
wasteful spending and inefficiencies. There is currently no 
process for Congress to review Federal agencies in this way, 
and I am very interested in seeing what savings the Federal 
Government could find if we examined in the most efficient way, 
these agencies to operate.
    So do you have any suggestions of areas in the Federal 
Government that you feel that we have ignored, that we might be 
able to find efficiencies and reduce spending?
    Mr. Vought. Thanks for the question, Senator.
    Our budget is chock-full, but let me give you one in 
particular. We have 85 different cultural student exchange 
programs at the Department of State. This has roughly doubled 
just in the last 20 years, and yet as many people that have 
benefited from coming to this country--and we do want people to 
continue to come to this country and see our culture and our 
society and build those ties--only 1 percent of them have been 
using these 85 different programs.
    Congress spends about $607 million in these 85 programs, 
and it is one of the reasons that we have called for not only 
elimination, but a reduction in that area. So that would be one 
place that I would start.
    But I think within every agency, there are opportunities to 
find waste, fraud, and abuse, and I hope that you would 
consider us as a partner in that.
    Senator Scott. Thank you. Thank you, Mr. Vought.
    Mr. Leen, I am glad you are from the great State of 
Florida. Thank you for the work you have done so far.
    What do you think is going to be your biggest impact on 
being able to save money?
    Mr. Leen. Part of it is what you just talked about, which 
is improper payments. The OPM IG's office has been very 
successful saving taxpayers a couple billion dollars over the 
last few years.
    I think investing in IG's offices, particularly in the law 
enforcement and audit component, is something that is key to 
reducing wasteful spending.
    In addition, I do think that the IG's office at OPM should 
be doing more evaluations of how the Federal civil service 
works to make sure that we are getting economies and 
efficiencies. We have only been doing about one a year at the 
OPM IG, and I think that considering it is the Federal civil 
service, you are talking about 3 million, approximately, 
workers in the United States. It seems to me that we should be 
focusing more on that and the way that that is done and 
ensuring that there is economy and efficiency there and we are 
always hiring people based on merit. I feel that part of the 
role of the IG is to ensure that occurs.
    Senator Scott. So you would like trying to hold people 
accountable and watch how money is being spent? Because being a 
business guy, no one ever came to my office as Governor and 
said spend less money. They always wanted to spend more money. 
So how are you going to handle all that pressure?
    Mr. Leen. I do. I do like that. I would use you as an 
example when you were Governor of Florida. I remember that you 
did that with the--I was the City Attorney, and you vetoed 
excessive spending. And you were always looking at the pocket 
book.
    I would do that as IG. I would make sure that money is 
being spent correctly, and if it is not, I would make noise. I 
would issue that recommendation. I would inform Congress.
    Senator Scott. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. I want to say welcome to our 
nominees. Welcome, and thank you for your willingness to serve.
    Mr. Vought, I would like to direct my first question to 
you. A couple of weeks ago, the President sent out a tweet 
claiming that if my home State of Nevada--and I am going to 
quote here--``thinks that they can send out illegal vote-by-
mail ballot,'' unquote, then he, the President, thinks that 
he--and I will quote again--``can hold up funds to the State,'' 
unquote. The President directed the tweet to you, Mr. Vought. 
At the end, he tagged you via @RussVought45.
    So because I have limited time and a few questions, I would 
just ask if you would please answer yes or no.
    Did you discuss this tweet with the President before it 
went out, sir?
    Mr. Vought. Senator, I do not make it a practice to talk 
about my conversations with the President, suffice it to say he 
wanted me to be aware of his tweet, and so he chose that as the 
mechanism for letting me know.
    But the President has also indicated that we have not made 
that--he has not made a decision to move in that direction, and 
OMB has not done anything on that front to begin to withhold 
funding as it pertains to those two States.
    Senator Rosen. Thank you.
    Do you know what the President meant when he said he could 
hold up funds to Nevada?
    Mr. Vought. Again, I am not going to get into any kind of 
deliberations that we might have, but in general----
    Senator Rosen. You do not know what he meant by that? We do 
not have any direction there?
    Mr. Vought. I cannot give you any direction. It pertains to 
the ability to look at a program by program, consistent with 
the law, and to identify what flexibilities are there. But, 
again, we have not done that, and the President has not----
    Senator Rosen. So I know----
    Mr. Vought [continuing]. Consistent to move in that 
direction.
    Senator Rosen. So have you had any discussion with the 
President? You had no discussion with him at all as to what 
funds he was referring to?
    Mr. Vought. Senator, I am not going to get into the 
conversations that I have with the President or our 
deliberations at the White House.
    Senator Rosen. So you will not say that you have ever 
advised the President, then, as to what funds he could hold up 
in retaliation for a policy he might not agree with in my 
State?
    Mr. Vought. Senator, again, I think I have been forthcoming 
with sharing that we have not moved forward in any effort to 
make an assessment about what discretionary authorities we 
would have, but I cannot get into the conversations that I have 
with the President of the United States.
    Senator Rosen. Mr. Vought, I just want to be clear that I 
believe it is never right for the President to threaten to 
unlawfully withhold critical funds from States, but it is 
particularly troubling to us now in the midst of a global 
pandemic and the economic crisis that has killed over 100,000 
Americans and has led to my State, the State of Nevada, having 
the highest unemployment in the Nation.
    States across the country are spending billions of dollars 
to help their residents in this time of need, and at the same 
time, our overall tax revenue has taken a major hit. This tweet 
has created such anxiety in our State and for people up and 
down, like I said, Nevada and across the country, people who 
depend on Federal funding right now, small business owners, our 
unemployed workers, our rural hospitals, domestic violence 
service providers, so many others.
    So I just want to say I urge you, if confirmed, to ensure 
that the law is followed and that OMB is not used as a tool to 
hash out political disagreements.
    But I am going to move on to two final questions on this 
topic. As Acting Director of OMB, do you believe that funding 
should be withheld from my State as a result of instituting a 
wholly legal vote-by-mail policy, and if so, what funding do 
you think my home State of Nevada should be denied?
    Mr. Vought. It is not my role to have an opinion on that, 
Senator.
    I would say that I do not have an opinion as it pertains to 
what funds would be eligible because we have not done the 
review, which is what I had said earlier.
    But I would say as a response to the very end of your last 
question that OMB is dogged in accomplishing the President's 
objectives consistent with the law.
    Senator Rosen. Let me stop you because I have limited time. 
I just want to ask you this final question on this topic. If 
the President asked you to withhold funding, will you comply 
with his order, or will you follow the law?
    Mr. Vought. Again, we are always at OMB trying to 
accomplish the President's objectives consistent with the law 
and the belief we----
    Senator Rosen. So you will not follow the law? You will 
follow the President's order, regardless of the law?
    Mr. Vought. Consistent with the law is what I said, 
Senator.
    Senator Rosen. Consistent with the law. Thank you.
    I would like now in the few minutes I have remaining to 
talk a little bit about Yucca Mountain, another very important 
subject to the State of Nevada.
    For more than 30 years, we have been fighting against a 
misguided effort to dump all the Nation's nuclear waste at the 
Yucca Mountain site in Nevada, despite the fact that we have 
never consented to storing other States' waste in our State. So 
instead of wasting more taxpayer money on this project, we 
should find alternative uses for the site, creative uses, 
without threatening the health and safety of Nevadans.
    That is why last year, I introduced the Jobs Not Waste Act, 
which would prohibit the Secretary of Energy from taking any 
action related to the licensing, planning, development, or 
construction of a nuclear waste repository at Yucca Mountain 
until two things happen. One, the Director of OMB, which would 
be you if confirmed, submits a study to Congress on the 
economic viability and the job-creating benefits of alternative 
uses of the Yucca Mountain site; and two, that Congress would 
hold a hearing on these economic benefits and alternative uses.
    And so what I would like to ask you is this. As you have 
noted, unlike several past budget requests, the President's 
fiscal year 2020 budget did not request funding for Yucca 
Mountain. Can you commit that if confirmed, your future budget 
proposals will also not request funding to store the Nation's 
nuclear waste at Yucca Mountain?
    Mr. Vought. Thank you for the question and for noticing 
that the President did not request funding for Yucca Mountain 
in part because one of the reasons is that the State for so 
long has opposed it.
    Look, I am happy to ensure that the President's positions 
are reflected in the budget and take a look at your bill, but I 
think the President agrees with you. And we are going to ensure 
that future budgets continue to reflect where his head is at.
    Senator Rosen. Thank you very much. I appreciate it.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
Peters, for having this hearing today, and to Mr. Vought and 
Mr. Leen, thank you for being here, and thank you for your 
interest in service.
    Mr. Vought, I want to start with a couple questions to you. 
As the coronavirus pandemic unfolded across the United States, 
the President released his fiscal year 2021 budget request that 
called for a $9.5 billion cut to the Department of Health and 
Human Services, including massive cuts to the Centers for 
Disease Control and Prevention and the National Institutes of 
Health (NIH).
    He later amended the budget request for CDC and pandemic 
response, but you are still requesting billions of dollars in 
cuts to the Department of Health and Human Services for fiscal 
year 2021. And you are still requesting less money for the 
National Institute of Allergy and Infectious Diseases (NIAID), 
the agency headed by Dr. Fauci, the agency that is taking the 
lead in responding to COVID-19.
    In the middle of this pandemic, how can you possibly 
justify cutting spending from Dr. Fauci's agency and cutting 
billions of dollars in Federal health spending in the next 
fiscal year, which starts just 4 months from now?
    Mr. Vought. Thank you for the question, Senator, and for 
noting that we both in our budget and in our budget amendment 
increased funding for the CDC's fight against infectious 
diseases.
    We had originally had a 3 percent increase. We amended our 
budget, because resource needs change, to have a 15 percent 
increase. CDC under the amended budget would have an increase 
of 8 percent.
    In that amendment, we had an increase as well for NIAID 
within NIH.
    In terms of overall from HHS's perspective, they are about 
a $100 billion agency, and we believe that even places like 
NIH--and I support and the President supports basic health 
research--that it is important for all agencies to be able to 
look and find out where they can do things more efficiently. We 
have found that even at CDC, there are things on the 
occupational health side, various studies that have been done 
that we do not think are as much of a priority, given their 
important work to fight infectious diseases, and that is the 
conversation we wanted to have with the Hill.
    Senator Hassan. Mr. Vought, thank you for the answer, but 
let me just be really clear. It is one thing to watch a careful 
cost-efficiency kind of review of an agency. I would suggest to 
you that in the middle of a pandemic, where most people think 
that the Executive Branch's efforts have been stretched, to say 
the least, and ineffective and wanting in some areas, the 
thought of underfunding the agency at this critical time 
instead of looking at what the needs are to meet this moment is 
inappropriate and reflects poor judgment.
    Let us move on to another issue. As we discussed spending 
priorities and the government's role in responding to a public 
health crisis, I want to emphasis how important it is for 
agencies to commit resources to improving the quality of 
Federal information technology. These improvements will allow 
the government to more efficiently and effectively deliver on 
its mission, maintain a robust cybersecurity posture, and 
prepare for and respond to unexpected circumstances.
    Recently, we have seen how the Federal response to COVID-19 
was hampered by aging IT systems across the government, whether 
it was the Internal Revenue Service (IRS) struggling to 
disburse millions of economic relief payments or SBA's E-Tran 
website crashing as it tried to roll out the Payroll Protection 
Program.
    Do you agree that the Federal Government's aging technology 
slowed its response to COVID-19 and delayed critical aid in 
services from getting to the American people?
    Mr. Vought. I would just say that I agree that the aging 
information technology is a problem for all of government. It 
had its implications with regard to this response in recovery. 
We have seen it personally because there is a small portion of 
OMB that is called the U.S. Digital Service that works hand in 
hand with agencies to provide technical assistance, and they 
have been deployed with States to help out on the user 
interface (UI) front and with various agencies throughout this.
    Your concern continues to be our concern, and we want to 
make sure we work together to make sure that when we spend $80, 
$90 billion per year for IT maintenance and improvement that 
when we are in the midst of a crisis and when we are in a 
steady State that we have every opportunity to have the 
American people get the service that they deserve.
    Senator Hassan. Can you elaborate and fairly briefly, 
please, on what steps you will take, if confirmed, to 
prioritize Federal IT modernization investments and help 
agencies achieve their modernization goals? Because in my 
experience, this is one of the things that gets pushed to the 
side. Again, when broad cuts are made without being thoughtful 
about them, this is the type of thing that gets delayed and 
delayed. So what specific steps can you take?
    Mr. Vought. Sure, and I would just say--and I will try to 
do it briefly--when we have constructed budgets on behalf of 
the President, we have never shorted IT when an agency has come 
forward and said this is important from that standpoint.
    We have also prioritized the Technology Modernization Fund 
because we think it is a vital way to move around some of the 
legacy issues that we have, but Office of the Federal Chief 
Information Officer (OFCIO), one of the office's at OMB, will 
continue to make a push to move beyond these old systems and 
move things toward digitally and cloud-based services. And you 
have my commitment to work on that.
    Senator Hassan. Well, thank you for that.
    I am going to turn now to a couple of questions for Mr. 
Leen. Mr. Leen, in recent weeks, President Trump has removed 
several Inspectors General and Acting Inspect General for doing 
their jobs, the jobs that they were assigned under Federal law, 
giving honest assessments about failures in Federal agencies 
and among Federal officials.
    This comes at a time when at least 100,000 Americans have 
died from the COVID-19 pandemic. Millions have lost their jobs, 
and Congress has dedicated trillions of dollars to recovery. 
Taxpayers are depending on all of us to make sure that it is 
acting appropriately, and Inspectors General are vital to 
accountability. But given the President's recent actions, I am 
skeptical that he is nominating independent individuals to 
these roles.
    You have stated that when necessary, you are willing to 
speak truth to power. Do you stand by this statement even now 
as Inspectors General across the government are being targeted 
for their findings?
    Mr. Leen. I do commit to that, speaking truth to power. 
That is something I have done my entire career.
    Senator Hassan. If you are confirmed, how do you plan to 
navigate the tension between performing your duties and an 
administration that is trying to block oversight?
    Mr. Leen. I am not going to necessarily accept that 
premise. I have been nominated, and I believe that I am being 
asked to be an Inspector General, to do my work. It is really 
between the President and Congress about Inspectors General as 
a matter of policy.
    What I can promise you is that I am--the main thing is you 
cannot be worried about keeping your job. You just have to go 
into it, do your work, and if I lose my job because any 
President decides to remove me with the 30 days notice under 
the IG Act, then I will get another job. But the main thing is 
to keep my reputation and to do my work well, and I will. I 
commit to you.
    Senator Hassan. Thank you, and I see that I am out of time, 
Mr. Chair.
    I would look forward to further discussion with you, Mr. 
Leen, about why you do not accept the premise, but I will leave 
that to another day.
    Thank you very much, Mr. Chair.
    Chairman Johnson. Thanks, Senator Hassan.
    Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you for having this hearing, 
Chairman Johnson.
    Russell, welcome to the Committee. Congratulations on your 
nomination. I am glad that you will now be nominated for the 
job, and as a former OMB Director, I am glad that we are going 
to be moving from Acting soon, I hope, to a confirmed position. 
You have done a good job, in my view, in your Acting role and 
in your prior roles, and so I am happy to be supportive.
    I do have some questions for you today. The first one is 
just about oversight of the COVID-19 funding. We have not had 
the opportunity as a Congress to do the kind of oversight that 
I wish we had and certainly not that you would normally do on 
four pieces of legislation, now totaling $3 trillion.
    But in the legislation called the CARES Act, we actually 
did provide some measure of oversight. One thing we asked is 
that we need to know whether the CARES assistance is helping to 
preserve or create jobs, and I think that is important. We 
required that people who receive $150,000 or more report how 
many jobs they are creating or preserving. I am quoting now 
from the statute: ``Each covered participant shall submit to 
the agency a report that contains a detailed list of all 
projects or activities for which funds were expended, 
obligated, and including the estimated number of jobs created 
or retained by the project or activity.''
    OMB recently received--or released some guidance that in my 
view seems to contradict what the legislation clearly says. I 
just wanted your comment on that. It says that the OMB 
anticipates that in most instances, centrally available 
economic data will provide sufficient information, quarterly 
reports without the need for recipients of relief funds to 
report the estimated number of jobs clearly retained.
    So you are Acting Director now, I hope soon to be Director. 
I do not see how that guidance comports with the law, and I do 
not see why, again, in the context of spending nearly $3 
trillion, we do not have more rather than less oversight. At 
least the oversight that is provided in the statute ought to be 
followed.
    Can you talk about that?
    Mr. Vought. Sure. And I do appreciate your comments and 
your question, Senator. It is high praise coming from you, a 
former Director, to have you reflect on my time at OMB that 
way.
    As it pertains to more transparency versus less, OMB wants 
to be the partners of Congress with regard to that. That 
portion of 
M-20-21, which was our management guidance, was an attempt to 
be able to communicate to agencies the balance that we believe 
we saw reflected in the law between the oversight and 
transparency requirements that you all enacted or you all voted 
for along with the speed at which you all wanted us to be able 
to get this funding out the door to those who would benefit 
from it. So it was not an attempt to ignore the law as it was 
an attempt to figure out what is the best way to ascertain 
whether a particular program is actually leading to jobs and 
our attempt to do it and not have too much paperwork built up 
on behalf of agencies and the recipients.
    But we are happy to continue the conversation with Congress 
as it pertains to its view of how that provision was written.
    Senator Portman. Yes. We would like to have that 
conversation. I mean, the fact that you say we can rely on 
macroeconomic data, the question is, What is the correlation 
between that and what we have done? So the macroeconomic data 
may indicate that there is an improvement or not, but without 
going through the process of getting the data from recipients, 
it is very hard to know what effect our actual expenditures 
had.
    So I would hope that you would reconsider that and you work 
with us on that.
    Senator Carper and I are about to introduce some 
legislation that came out of our Permanent Subcommittee on 
Investigations (PSI). It has to do with China. It has to do 
with the China talent program stealing our technology, 
innovations, internet protocol (IP). It has to do with Federal 
funding because this is taxpayer money going to NIH or National 
Science Foundation (NSF) or Department of Energy (DOE) or 
elsewhere and then being given out to research universities. 
China finds promising research through its programs. It 
effectively takes that research and sometimes the researchers 
back to China, often commercializing this research long before 
we do. So it is something that everybody, I think, views as a 
problem.
    One of the ways we, I think, can hit it off is to have the 
Office of Management and Budget be more involved in 
coordinating between these Federal agencies like NIH, NSF, and 
Department of Energy.
    We establish a new council. I think you are aware of this 
because your folks were very helpful in providing us technical 
information to be able to put this together properly and 
technical advice as to how it could work going forward. The 
Federal Research Security Council is the name of it.
    Can you tell me, one, what your familiarity is with that 
and whether you are familiar with it or not? We would love to 
work with you going forward, should we be able to enact this 
legislation to make sure it is effective, which would mean 
working with the Office of Science and Technology Policy. They 
have already begun establishing some standards, but really 
requiring these agencies to have transparency between 
themselves, to share information, to let grant-writing, grant-
giving agencies know who some of the problematic recipients 
are, so that there is shared information. Can you speak to 
that, Russell?
    Mr. Vought. Sure. And I am aware of the bill, and that we 
have been participating and trying to give you all technical 
assistance.
    Without speaking on behalf of the administration, I would 
just say that this has been a theme, a priority in general 
about ways that we can tackle this problem, and so many of the 
ideas are things that I think OMB would be well situated to 
help out with. We would perform this function with regard to 
the supply chain council, and I think that this is--our all-of-
government perch allows us to play an important role here. So I 
am happy to continue to work with you all as you move forward 
in the legislative process and it gets to the President's desk.
    Senator Portman. Great. Our hope is that this can be even a 
nonpartisan exercise. It has been so far, and I think everyone 
is shocked by what is happening. It is one of five reforms in 
the bill and I think a very important one. So we thank you for 
that and thank you for helping us on the technical assistance 
to get us to this point.
    There is another organization that OMB houses, and that is 
the Federal Permitting Improvement Steering Council (FPISC). 
This came out of legislation back in 2015, part of the highway 
bill, and it has been terrifically successful, particularly 
recently, saved a billion dollars, as you probably know, 
improving the permitting process. They have reduced permitting 
timelines by about a year and a half for covered projects, 
which is amazing. So of the very few projects that have gotten 
into the system that are able to be covered, they saved over a 
billion dollars, which just shows how much we can do with more 
efficient green lighting of projects through permitting.
    First, are you aware of the permitting council? Have you 
been involved with it? Do you envision it continuing to work as 
it is currently operating, if you are familiar with it? And do 
you have any suggestions about how we can make it work better, 
more transparency, more accountability, and getting more 
projects involved?
    Mr. Vought. Certainly, Senator, I am aware of it and the 
important work that it has been doing to reduce permitting 
timeframes. This has been a priority of the President. Much of 
the work that they are doing is involved around the issue of 
trying to get as much as we possibly can to having one Federal 
decision. I think they are doing important work.
    I do not have any immediate suggestions on how to improve 
on it, but I am happy to take your views with any follow-up to 
provide transparency if there is a need there and to make sure 
that it is bolstered, and it is important work.
    Senator Portman. Great. Russ, thanks very much, and again, 
good luck to you. We have a lot to work on going forward.
    Mr. Vought. Same here. Thank you, Senator.
    Chairman Johnson. Thank you, Senator Portman.
    I feel bad that I missed Senator Lankford the last time 
around, but, Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. The redhead is always hard to see. I just 
kind of blend in. I get that full well, so no problem on that.
    Let me ask a couple of questions on this. Mr. Leen, let me 
start with you on this. Thanks for stepping out to do this. We 
have needed someone in this position for 4 years now, and I am 
grateful that you are stepping up and willing to be able to 
take this on.
    You and I have visited before already in my office to be 
able to talk through a lot of these background issues. Tell me 
your thoughts on the retirements for Federal retirees and what 
your thoughts are on trying to be able to help this process 
because this has been a painful process for Federal retirees to 
be able to get into the system for a while.
    Mr. Leen. Yes.
    Senator Lankford. So do you have additional thoughts going 
into this?
    Mr. Leen. Yes. And as I mentioned to you, this will be a 
priority for me. It is just too much of a gap in time for so 
many people to be able to get those retirement benefits that 
they have earned.
    The same issue came up in Coral Gables, to some extent, 
regarding retirement, I think, I mentioned to you, and I 
oversaw a review of our auditor and issued a report. And we 
fixed that problem that came up there. My job as OPM IG would 
be to do the same, to bring attention to that specific issue, 
which should be fixable--it should be fixable--and do 
recommendations focused on that and then bring attention to it. 
I would make that a top priority.
    Senator Lankford. Terrific.
    Mr. Leen. I believe we owe it to our Federal workforce.
    Senator Lankford. Terrific. Glad to hear that because that 
has been something that has been hanging out there for years 
and years and years. Digitizing those records, getting a 
consistent path from every agency to be able to get all the 
information in, especially if someone works for two or three 
agencies, their retirement takes painfully long to be able to 
start. So I appreciate your focus on that.
    Same thing, we have had a lot of recommendations from the 
Chief Human Capital Officers Council (CHCOCs) over the years on 
hiring authorities, management authorities. They seem to be 
floated, but I do not have a set of recommendations that I can 
get from an IG. Is that an area you would want to be able to 
look at on how we are doing hiring authorities, what is 
working, what is not working, what hiring authorities are 
seldom, if ever, used? We have 120 different authorities and 
just a lot of clutter out there in the process, and we need to 
be able to have some consistent pathways.
    So I am not looking for the answer at this point, but your 
commitment to be able to look for how we can get to the answer.
    Mr. Leen. Senator, I really want to look at that. I want to 
look at Schedule A, veterans' preference, hiring of disabled 
veterans, and that is just three of them. There are so many, 
and you are right. It should be made more efficient, and we 
should be using them correctly. It should not be ad hoc, 
depending on the agency and the proclivities of a particular 
agency. There should be general policies.
    Senator Lankford. OK.
    Mr. Leen. I agree with you, and I would focus on it.
    Senator Lankford. I look forward to working with you on 
that one. Senator Sinema and I, that is something that we have 
talked about often on both of those issues. You will find in 
our Subcommittee, some willingness to be able to engage on 
that. I want to try to get that resolved. I look forward to 
your recommendations.
    For Mr. Vought, it is good to see you again. Thanks for all 
the work that you have already done. You have been very 
responsive to our office, and I appreciate that. We have asked 
hard questions. We have asked, at times, for information and 
details and numbers. Your team has been responsive to be able 
to get us answers back, and I appreciate that in the way that 
you are working through some things.
    Let me ask you a couple of things, specifically on guidance 
areas. This is an area that has been a long standing problem 
that if you are new at a business and you want to say what 
guidance is out there from a particular oversight agency, there 
is no place to go. Basically, the Federal Government says to 
every person in every company, ``Go figure out on your own 
where the guidance is located.''
    You have been leading a structure to try to get some kind 
of listing of guidance out there from every agency. I want to 
know how that is going and what is the process. What do you 
expect to do with that in the future?
    Mr. Vought. Thank you, Senator, and appreciate the kind 
words.
    We are making progress on that. To that particular concern, 
anyone who creates a business wants to know what an agency has 
said as it pertains to speaking authoritatively would be able 
to go to that agency and see a searchable public website.
    Most of the agencies have already complied. The EO that the 
President signed last year gave the ability for OMB to grant 
extensions, which we have in some examples, particularly HHS 
that has such a monumental job to get their arms wrapped around 
all the guidance that they want to be reflected on that 
website.
    And then the other aspect of that EO was the agencies would 
put together an actual rule about how they would attempt to 
consider and move through, guidance through the regulatory 
process, and we are making progress on that front.
    We want to make sure that if guidance is being used in 
place of rulemaking that it go through the cost-benefit 
analysis and gives the same level of scrutiny and the American 
people the ability to notice and provide comment to that 
regulatory document that impacts their life.
    So we appreciate your leadership, this Committee's 
leadership on providing bills that kind of articulate this 
direction, and we welcome the ongoing partnership on it.
    Senator Lankford. Yes. There is a bill that we have worked 
on a while, and your team has given some technical assistance 
in that, the Taxpayers Right-to-Know. That bill passed 
unanimously through the House. It has now cleared the 
Republican side, and so I am not sure which one of the 
Democrats at this point is holding up the bill that even 
Speaker Pelosi was for. It is currently being tied up on the 
Democratic side. We are trying to be able to get that resolved.
    One of the No. 1 issues for GAO for years has been that it 
takes them a very long time to be able to compile information. 
That should be readily available.
    The first time that that gets started, I know it will be a 
burden to get it started, but once it started from every 
agency, it would be extremely helpful to GAO, the American 
people, and certainly to Congress to be able to know what each 
agency does, full-time equivalent (FTEs), what the programs 
are, what the costs on those things are, which we do not know 
at this point. My suspicion is it even takes your team a long 
time to be able to compile that. Certainly, that is dark to us. 
So I appreciate your team's help on trying to get the Taxpayers 
Right-to-Know done and to be able to get it right in the 
process.
    Let me ask you another question, though, about Corps of 
Engineers. You and I have spoken specifically because this has 
been a longstanding issue. The Corps of Engineers will say they 
make recommendations to OMB that goes into a black box. Members 
of Congress, myself included, would talk to the Corps and would 
say, ``OK. What are your top priorities?'' They will say, 
``This particular project in your State is a life safety issue. 
It is a top priority for us,'' and then when it all pops out as 
far as administration proposals, it is not on the list.
    That black box of how decisions are made for Corps of 
Engineers' projects around the country as it gets into the OMB 
part has been hard to be able to get our arms around. It is not 
a partisan issue. It is just an issue of how decisions are 
made.
    I would like to be able to work with you and your team in 
the days ahead and the Corps of Engineers to try to figure out 
how to make this a more transparent process. Are you open to 
that?
    Mr. Vought. Certainly open to it. In the area of reformed 
Army Corps, I would love to work with you. Often what is 
involved there is reflecting the President's views on these 
important decisions as well and making sure the Corps itself 
has that reflected in their plans, but certainly want to be as 
transparent in this as possible. And we believe that OMB is 
actually a part of the process that makes it go more smooth and 
that helps provide information to Congress in a transparent 
manner.
    Senator Lankford. Yes. Look forward to that. Thanks again 
for your willingness to be able to serve on it. Thanks.
    Chairman Johnson. Thank you, Senator Lankford. Senator 
Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman, Ranking Member 
Peters. My questions also are going to be directed mostly to 
Mr. Vought.
    I appreciate your service already and your willingness to 
take this further.
    I think there is wide bipartisan agreement that during the 
economic crisis and the health crisis that we are undergoing 
that we have to provide the funding necessary to help families 
that need relief and try and keep businesses operating so that 
we are able to have a recovery. So even though a lot of us that 
are spending hawks and debt hawks are concerned about all the 
debt, we recognize that now is the time--if there ever is a 
time, now is the time to be borrowing.
    But I guess the question is as we think about the next 
phase--and whether or not there is going to be another rescue 
package, I do not know, but if there were to be another rescue 
package, do you or does the administration think it would be 
important to include in that rescue package some provision for 
dealing with the structural debt problem, the structural 
deficit problem that we have?
    And by that, I will just note that I have spoken with a 
number of individuals, including a former Secretary of the 
Treasury, who said, ``Look, the world markets that buy our debt 
will understand borrowing during the COVID crisis, but they do 
not understand an extra trillion dollars a year in excessive 
borrowing during good times.''
    So is this a time? Would it make sense to include some 
provision, some process to ultimately deal with our structural 
imbalance?
    Mr. Vought. Senator, thank you for that question, and I 
think you know that I am someone that is very concerned about 
spending and debt deficits, and this President has as well been 
concerned about that with the budgets that he has put forward.
    It often goes unnoticed that the budgets that he has put 
forward have had more spending reforms than any President in 
history, including on the mandatory side to reforms, welfare 
reform, direct pricing reform, and so we believe that there is 
an opportunity in the future to be able to identify some of 
these things, work with Congress, and to be able to enact them. 
And we would welcome that, and we would welcome any ideas that 
Congress has to include in the next package if it is deemed 
necessary, if we have implemented the first four bills, and 
there is a bipartisan consensus to move forward. I think this 
administration and the President would certainly consider 
anything that Congress has in mind to be able to think ahead 
down the road as it pertains to spending and deficits, so to 
consider some of the reforms that we have put in his budgets.
    Senator Romney. Each time the President's budget comes out, 
he identifies places to economize. In many cases, these things 
make a lot of sense.
    The final piece of legislation we are presented typically 
includes a whole list of things we wish were not there, 
programs we wish were eliminated. There is always a list of 
laughable spending, priorities that someone has stuffed in 
there. We all scratch our head and say, ``Why is this?''
    So one of the questions a new Senator like myself has, 
``Why are these strange, excessive, and unnecessary 
expenditures still being made?'' and at the same time, ``Why 
are some important reforms not being included?''
    And I guess I would ask you, What is wrong with the 
process, and is there a way that you or the administration can 
become more involved in the process of creating the final 
budget, not just your proposal budget, but the final piece of 
legislation that gets passed? What are we missing? What is 
wrong with our process that we cannot deal with the excesses, 
we cannot deal with the silliness of some spending programs, we 
cannot get some reforms done? Is it a failure of the 
administration to interact with Congress? Is it the failure of 
the Congress to work across party lines? What has made it so 
difficult for us to finally get a handle on the excesses and on 
the things that we should not be spending on, and how do we 
change that? Is there some way we can improve?
    Mr. Vought. A couple ideas, and I think one of the things 
we have seen that we have tried to do is to get involved 
earlier and more often. The President has the same view. He 
dislikes when bills get to his desk that are so big, and we 
have not had an opportunity or enough of an opportunity to 
participate in the process. That is one of the reasons why he 
was so opposed to ever doing an omnibus bill again.
    So we have tried to send up letters to work with the 
Appropriations Committee and other committees much earlier in 
the process so that there is a more robust view about what we 
actually find problematic and what we do not.
    I also wish Congress was doing budgets and passing those. I 
think that is a very important part of the legislative process 
that, unfortunately, has fallen by the wayside, because I think 
it helps to have a debate in the world's most deliberative 
bodies about what we can afford, what we cannot, and what you 
find wasteful in addition to what we have found wasteful. In 
those dynamics, our budgets can often be an idea generating 
documents for amendments and debate points.
    We are not here to argue that the system is working. In 
fact, we want to be part of the conversation about how to 
improve it and make sure that we are not jamming the country at 
the end of fiscal years.
    I appreciate much of the hard work that has been done by 
this Committee and various authors on the issue of continuing 
resolutions (CR). That is a very important legislative 
initiative, but I think there is a lot of things that we could 
be working on to improve the process, Senator.
    Senator Romney. Thank you. I will let you go here, but I 
just note that with regards to these relief packages associated 
with COVID that Secretary Mnuchin has been able to insert 
himself in relationships with both the House and the Senate 
that has helped guide, in some respects, the structure of the 
package. I wonder whether it is not possible for OMB and the 
administration to play a much more active role in the process, 
the appropriations process, the budget-creating process so that 
we end up with some of the reforms that the administration is 
looking for.
    With that, Mr. Chairman, I will yield back to you.
    Chairman Johnson. Thanks, Senator Romney. You definitely 
asked the $64 question: Why are things so screwed up, and what 
can we do to unscrew it, I guess? So I appreciate that.
    Next, Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you so much, Mr. Chairman.
    I appreciate the nominees who have joined us today, and I 
look forward to our discussion.
    My question today will focus on Mr. Vought, and I will have 
a couple questions for Mr. Leen that I will submit for the 
record.
    Federal spending is a critical topic as our Nation grapples 
with how best to respond and recover from the virus. It is 
important that we make wise decisions on how best to apply 
Federal resources to issues ranging from acquiring personal 
protective equipment; to support for our State, Tribal, and 
local government partners; to how best to manage the PPE 
program.
    So, in Arizona, we need the Federal Government to be an 
effective partner in these initiatives. Over the past several 
months, the United States has been under significant stress. We 
have seen over 100,000 tragic deaths in our country, which has 
led to an economic downturn that impacts every family across 
the Nation.
    So my question for you, Mr. Vought, is based on your 
observations and as the chief official responsible for managing 
Federal spending and ensuring agencies effectively implement 
the administration's priorities and initiatives, what parts of 
the Federal Government need improvement to be more effective 
and efficient during times of crisis such as this?
    Mr. Vought. Senator, I appreciate the question. I do not 
want to lay blame anywhere in responding, but I do think we can 
always get better in how we work as agencies within the 
interagency to remove barriers to get things done, to move 
faster.
    I think one of this administration's success points has 
been the Vice President's task force that has allowed someone 
like me who has a role to play with regard to the glue amongst 
all the interagency process to be able to help remove barriers 
and work on those issues.
    So I think that it is incredibly difficult when you have 
different agencies with different statutes with different 
stakeholders to get them all moving in the right direction, to 
be able to identify barriers that need to be pulled down, 
regulatory or otherwise, and that is one of the reasons we were 
so proud about the 600 different regulatory initiatives that we 
have taken during the coronavirus response and recovery and 
hope to continue that. And one of the reasons why the President 
does an EO is so that he gets the pulse of the administration 
moving in this direction, but happy to continue to work with 
you in how it is being distributed at the State level.
    Senator Sinema. Thank you for your response.
    I just want to be clear. I want to make sure that I 
understand correctly. You have not observed any part of the 
Federal Government that needs improvement as it relates to the 
coronavirus?
    Mr. Vought. No, I would not say that. When I respond that 
way, where we have been at our best as an administration is 
when the agencies have been all getting in a room and moving 
forward and identifying burdens, and I have many successes on 
that front in terms of how we have scaled the production of 
ventilators, to the production of testing, to ensuring that 
States have the PPE that they need. And I think we can always 
do things better, but nothing immediately comes to mind as 
something that has been broken.
    Senator Sinema. OK. Thank you for clarifying.
    So I think celebrating victories of what we have been able 
to do well is certainly a good thing to do at a later time, but 
now as Americans are still dying and as we are facing a 
potential resurgence of the virus in the fall, in some States 
like mine, the virus is still moving around very strongly. I 
just wanted to be clear that nothing comes to mind about what 
the Federal Government needs to do better to be more effective 
or efficient during a time of crisis such as the one we are in. 
You cannot think of any area where we could do better?
    Mr. Vought. Again, from my vantage point, Senator, I have 
seen an administration and task force that is working as 
expeditiously as we possibly can to meet challenges as they 
arise.
    I remember early on in the process, what it would be for a 
State like New York, and we were seeing numbers that were just 
astronomical, and this administration worked the problem. And 
we have ensured that no one did not have a ventilator who 
needed one, and I think that given where we were, it is an 
example of how we have worked problems in the moment and tried 
to think as much as we possibly can until the next problem 
comes our way. Nothing comes to mind that is structural that 
could have been done better.
    When this is all over, we will try to find and identify 
areas that we can get better and work with Congress for 
identifying things that you have seen and have you speak into 
the process, but we are still in the midst of trying to combat 
this effectively from a public health standpoint and ensure 
that we get the economy recovering as fast as possible.
    Senator Sinema. Thank you.
    So I want to follow up with a very specific question, then. 
As you are probably aware, a $3 million contract was awarded to 
a company established by a former senior official in the White 
House. He had no prior Federal contracting experience. It turns 
out that the company he created provided a large number of 
substandard KN95 respirator masks to the Indian Health Service 
(IHS), and these were all directed to the Navajo Nation. As you 
are, I am sure, aware, the Navajo Nation now has the most 
severe outbreak in the country, even worse than the State of 
New York.
    So do you believe that the Federal response to the outbreak 
on the Navajo Nation and the obligation to provide working PPE 
was both effective and efficiently met?
    Mr. Vought. Again, I do not know the specifics of that 
particular scenario. I did see the news article with regard to 
it. I would refer you to the agency that presumably had made 
that decision.
    But, again, I think there are things like that that we can 
do better. I do not think that is an indication of a structural 
issue in any way about our response in the recovery.
    Senator Sinema. OK. That is an area where I think we could 
probably have further discussion. It sounds like there could be 
a structural problem with failing to adequately vet vendors and 
perhaps awarding contracts to vendors who do not have a proven 
track record, especially in a case as dire as that on the 
Navajo Nation where, again, we are seeing the per capita 
infection and death rates to be the highest in the entire 
Nation.
    I see that my time is expiring. So, Chairman Johnson, I 
will submit the rest of my questions for the record. I do have 
some more concerns around telehealth services, and again, I 
will submit those for the record. Thank you, Mr. Chairman.
    Chairman Johnson. OK. Thank you, Senator Sinema.
    As usual, I think our Committee Members have asked some 
great questions. We have covered a lot of topics, and I would 
have to say the nominees, I think, have done an extraordinary 
job of answering with a great deal of confidence and knowledge. 
So I want to thank you for that.
    I will close this thing out with just two questions, one 
apiece.
    Mr. Leen, as I stated in my opening comments, OPM is 
undergoing a significant restructuring. As it has an Inspector 
General's office there, that is going to be something that I 
think you are going to be dealing with and grappling with and 
doing inspections and investigations on.
    Can you just kind of talk a little bit about how you plan 
to handle that situation?
    Mr. Leen. Yes, certainly. OPM obviously is facing a lot of 
challenges at this time, and of course, I believe you are 
referring also to the potential merger with the General 
Services Administration (GSA), which I know is on hold at this 
moment while a report is being done.
    I do believe--and my view is consistent with what OPM IG is 
presently doing--that the IG's office has a significant role in 
overseeing--if there were to be a merger, overseeing that 
merger to protect the core equities of OPM, including the human 
resource (HR) function, Federal Employees Benefits Program 
(FEHB), retirement, the charitable giving. There are so many 
different things that OPM does, and you do not want that to be 
lost within the larger, much larger structure of GSA.
    So there is definitely a role to play for the OPM IG, and I 
plan to play it.
    Chairman Johnson. Thank you, Mr. Leen.
    Mr. Vought, I want to join Senator Peters in his 
questioning and request for more information on PPP. We may 
have different questions.
    I share the concern about the number of businesses that 
obtained PPP loans because there is no effective demonstration 
of need. As a result, PPP loans went to, I mean, many 
businesses that really did not need them.
    Again, the criteria was simply it becomes an economic 
uncertainty if you felt you needed a loan for the ongoing 
operations of your business, step up to the plate and try to be 
first in line. So I am not accusing any businesses of any kind 
of fraudulent activity. They did what they thought was best in 
very uncertain times, but now I think we need to make sure that 
any additional money we spend is not allocated or disbursed to 
businesses that really do not need it.
    We do not have an unlimited checking account here, and we 
certainly need to direct future assistance to help open up the 
economy to only those businesses that are viable and really do 
need the support. So I will join Senator Peters in trying to 
develop as much information on PPP.
    But we spoke earlier. I was just trying to get a handle on 
how much of the $2.9 trillion in the first, we will say, three 
and a half phases, but four phases of financial relief, how 
much was actually spent. My own staff has been able to detail, 
working with agencies, about $1.12 trillion of the 2.9.
    We are really going to need a very detailed accounting of 
where the money is spent. To the extent that money has not gone 
out, what is the roadblock? By the way, if it is not needed, 
that is good that we have not spent it, but maybe we need to 
reconsider what has not been spent, remedy some of the 
problems. As I mentioned, in PPP, there is really no control 
over people who do not need it.
    What can you tell us in terms of OMB's role of how much 
information you can provide us, whether you are kind of looking 
at doing the same type of analyses? So that we might need to 
redirect and repurpose part of that $2.9 trillion as opposed to 
talking about a phase four, which is really phase five.
    Mr. Vought. Sure. I appreciate that question. I know that 
you have been asking for that information. It is a priority for 
me to get that information to you.
    Right now, I am trying to make sure that we get the May 
information as to how much has gone out in the month of May 
before we would be able to provide a presentation. So that is 
something that we are in the midst of trying to complete for 
you, and I do believe it is vital for us as we head into any 
consideration of the next piece of legislation.
    The figures that you are using are not dissimilar to the 
ones that we are seeing based on the end of May as it pertains 
to what has been legally obligated. Sometimes that does not 
necessarily reflect the fact that UI is going to be spent out 
over the next year when you are given 52 weeks of benefits or 
whether Treasury is only having to obligate for the credit 
subsidy amount to some of the loans. So I think there is a 
story to tell with regard to each of these programs, but we are 
hearing you loud and clear, Senator. And we are going to get 
you the information that you have requested.
    Chairman Johnson. I appreciate that. The House already 
passed a $3 trillion spending package. Again, we probably have 
not spent--certainly less than half of what we have already 
appropriated. We really need to carefully take a look at that. 
So we will be looking to OMB plus, I think, the agencies as 
well.
    Again, I am not being critical. We had to do something 
massive. We had to do something fast. We all knew this was 
going to be far from perfect, but now is the time to take at 
least some measure of pause here and really analyze what we 
have done and how we can do it better. So, again, we really 
appreciate your cooperation on that.
    I will close out the hearing by just saying the nominees 
have made financial disclosures.
    Senator Peters. Mr. Chairman.
    Chairman Johnson. Senator Peters, sure.
    Senator Peters. I have just one last question, if I may. 
Thank you, Mr. Chairman.
    Mr. Vought, something we spoke about before, I would just 
like to reiterate with you today and get your response, and 
that is the FEMA cost share. As you know, States have been hit 
in a major way. Michigan is certainly an example of that but 
other States across the country. What the administration can do 
is increase the FEMA cost share to basically 100 percent, so 
States do not have to put up their portion.
    I know you were concerned about a precedent that that set, 
but we are certainly--and something that is unprecedented, and 
you can certainly make a distinction when you are dealing with 
a hurricane that is basically blowing across the entire country 
that is being hit by natural disaster or a flood or a wildfire, 
that helping States who are impacted in a significant and 
dramatic way would make sense for FEMA to pick up 100 percent 
of the cost.
    So where is the administration on that, particularly in 
this unprecedented time? If you could respond to that question, 
I would appreciate it.
    Mr. Vought. Sure. Thank you, Senator, for that.
    We are in the same place that we were when we talked last. 
We are aware of the request. The President is aware of it. The 
administration has not decided to grant any request yet for 100 
percent cost share. We are considering issues like precedent 
issuing--considering issues where it is always helpful to have 
the States to have a little bit of a share in the cost. It 
helps them to be an important vetter about what is needed and 
what is not at the local. You do not want them to not have the 
important resources that are necessary, but we do want them to 
be partners in ensuring that the Federal Government is not on 
the hook for something that is inappropriate.
    But it is part of the administration's list of things that 
we will continue to work through, and we have not made an 
announcement--or the President has not made a decision on that.
    Senator Peters. Is there a timeline?
    Mr. Vought. We are working through it. There is no timeline 
at this point right now, but we recognize the requests that 
have come in and how passionately you and other members of the 
delegations have spoken on, into the process on it.
    Senator Peters. Very good.
    Thank you, Mr. Chairman.
    Chairman Johnson. Sure. Thanks, Senator Peters.
    This really is the perfect example of why we need 
information and data. I have seen various estimates in terms of 
the projected loss revenue and then plus COVID costs; in other 
words, the budgetary impact of States. Some are being no more 
than $350 billion into fiscal 2021. I think we have already 
authorized something like $240 billion-some for the States. In 
many cases, we do not quite know how that is all being spent.
    So I am not saying those are hard-and-fast numbers. What I 
am saying is that we need the data, which was kind of the point 
in raising this issue with Mr. Vought as well. So I guess it is 
just the accountant in me. I really want some information 
before we start making some of these big decisions.
    But with that, the nominees have made financial disclosures 
and provided responses to biographical and prehearing 
questions\1\ submitted by the Committee. Without objection, 
this information will be made part of the hearing record,\2\ 
with the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The information of Mr. Vought appears in the Appendix on page 
44.
    \2\ The information of Mr. Leen appears in the Appendix on page 
185.
---------------------------------------------------------------------------
    The hearing record will remain open until 5 p.m., tomorrow, 
June 3, for the submission of statements and questions for the 
record.
    This hearing is adjourned. [Whereupon, at 4:19 p.m., the 
Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
